Office of Inspector General



      FINANCIAL ANALYSIS OF
  TRANSPORTATION-RELATED PUBLIC
      PRIVATE PARTNERSHIPS
       Federal Highway Administration

        Report Number: CR-2011-147
         Date Issued: July 28, 2011
               U.S. Department of
                                                                    Memorandum
               Transportation
               Office of the Secretary
               of Transportation
               Office of Inspector General


Subject:       INFORMATION: Financial Analysis of                                             Date:    July 28, 2011
               Transportation-Related Public Private Partnerships
               Federal Highway Administration
               Report No. CR-2011-147

  From:        Mitchell Behm                                                               Reply to
                                                                                                       JA-50
                                                                                           Attn. of:
               Assistant Inspector General for Rail, Maritime and
               Economic Analysis

    To:        Federal Highway Administrator


           Between 2004 and 2006, two toll roads built in the 1950's—a 157-mile road in
           Indiana and a shorter road in Illinois known as the Chicago Skyway—were leased
           to Cintra/Macquaire, a private consortium. These leases were established through
           unique financing mechanisms known as Public Private Partnerships (PPPs).
           Under these agreements, Cintra/Macquarie made multibillion dollar payments to
           the State of Indiana and the City of Chicago, and obtained control of the Indiana
           Toll Road and the Chicago Skyway for 75 and 99 years, respectively.

           In general, PPPs create contractual arrangements between public agencies and
           private companies, and lead to greater private-sector participation in the financing
           and delivery of public projects than traditional public financing arrangements.
           These arrangements have spurred debate among stakeholders. Some question
           whether PPPs serve the public interest, while others point to PPPs as a means to
           address the nation's infrastructure funding problems. In February 2009, the
           National Surface Transportation Infrastructure Financing Commission reported
           that the nation’s surface transportation system is in “physical and financial crisis”
           due to shortfalls in Government infrastructure spending, and estimated that the
           annual average shortfall, or funding gap, from 2008-2035 would be approximately
           $138 billion. 1



           1
                This represents the total funding necessary to both maintain and improve the highway and transit systems, expressed
                in 2008 dollars, under the Commission's baseline revenue forecast.
                                                                                   2


This report presents the results of our financial analyses of transportation-related
PPPs. Our objectives were to: (1) identify financial disadvantages to the public
sector of PPP transactions compared to more traditional public financing methods;
(2) identify factors that allow the public sector to derive financial value from PPP
transactions; and (3) assess the extent to which PPPs can close the infrastructure
funding gap.

To conduct our analyses, we worked with a team of contractors led by Charles
River Associates International and financial consultants, Scott Balice Strategies.
We based our analyses on representative examples of projects that illustrate
features of typical transportation infrastructure projects. We patterned these
examples after, but did not exactly replicate, seven proposed or implemented PPP
highway projects–six in the United States and one in Europe. We compared the
cost of financing our example projects through PPPs and traditional financing. We
conducted our analysis from the perspective of a state or local government
decision maker selecting a financing alternative However, our analyses did not
consider the impacts of factors such as risk sharing arrangements or the ability of
the private sector to deliver a project more expeditiously, which can be significant,
and are necessary to arrive at an effective financing decision. We also developed a
flowchart of our analysis for decision makers to consider in choosing between PPP
financing and traditional financing.        Exhibit A describes our scope and
methodology in more detail.


RESULTS IN BRIEF

PPPs have several financial disadvantages when compared to traditional public
sector financing. Specifically, PPPs have a higher cost of capital than traditional
public financing, and they incur certain tax obligations that do not exist for public
entities. PPPs experience higher costs of capital because interest on PPP debt is
taxable while interest on municipal bonds, used by public agencies to pay for
infrastructure projects, is tax exempt. Consequently, bond purchasers will accept
lower returns on municipal debt in exchange for the advantages they gain from the
tax exemptions. PPPs also face higher costs of capital because, unlike public
financing, they involve equity investors who own stakes in the projects, share in
the profits, and expect to earn higher rates of return for the risk they undertake.
The private sector also must pay Federal, state and local taxes on certain assets
and net revenues that the public sector generally does not. Our analysis found that
the impact of these taxes on the relative value of a PPP can be as significant as the
higher cost of capital.

Certain private sector efficiencies can meaningfully offset PPPs' cost
disadvantages. Principal among these efficiencies are those which lower new
                                                                                                                        3


facility2 design and construction costs, and efficiencies in revenue generation such
as toll rate increases, decreases in toll evasions, and more profitable rest stop
concessions. Innovative financing mechanisms may also improve PPPs' financial
attractiveness. Two Federal programs provide access to these mechanisms—a
program established under the Transportation Infrastructure Finance and
Innovation Act (TIFIA), and the Department of Transportation's (DOT) Private
Activity Bonds (PABs). The TIFIA program offers secured direct loans, loan
guarantees and lines of credit. PABs are tax-exempt bonds issued by public
entities to provide low-cost financing for private projects that serve a public
purpose. Both programs can significantly lower PPPs' costs of capital, making
them more competitive with traditional financing. In contrast, another means for
improving the attractiveness of PPP's—efficiency in operations and maintenance
(O&M) activities—generally does not produce savings of sufficient magnitude to
overcome PPPs' cost disadvantages. Overall, the difference in the relative values
that PPP financing and conventional public financing can provide must be
determined on a project-by-project basis after careful consideration of all factors.

We found that PPPs are not likely to significantly decrease the infrastructure
funding gap because private sector investment in transportation through PPPs
generally does not entail new or incremental funds. Rather, the funds paid upfront
to the public sector under a PPP are paid in exchange for future revenues, often in
the form of tolls. In other words, a PPP primarily changes the timing with which
funds become available, not the amount of the funds. A PPP only provides
additional funds to the extent that the private sector is willing to pay more for a
project—a roadway, for example—than the public sector expects to earn from the
project over time. According to our analysis, only two of the seven example PPP
projects we examined would provide incremental funds directly. Our analysis also
showed how another project could provide incremental funds through the use of
innovative financing mechanisms.


BACKGROUND

PPPs establish contractual arrangements between a public agency and a private
entity. However, each agreement may assign responsibility and allocate risk
differently. A PPP may assign the private sector responsibility for the design and
construction of a highway link or only require the private sector to operate and
maintain the link. Risks that may require allocation include potential construction
cost overruns and insufficient toll receipts to pay for operations and
maintenance (O&M). Contracts under which the private sector assumes
responsibility for both the design and construction of a transportation facility,

2
    In this report, the term “facility” refers to all types of transportation infrastructure (e.g. a bridge or road).
                                                                                  4


often along with the risk of associated cost overruns, have become fairly common
in the U.S. Apart from these contracts, at least 30 surface transportation PPPs have
been negotiated in the U.S. in the last decade.

States and localities currently fund over 55 percent of the investments in surface
transportation infrastructure, either by constructing facilities on their own or by
providing matching shares for Federal investments. Under traditional financing
methods, state and local governments typically fund transportation investments
with municipal bonds, which are repaid through tolls and state taxes. The Federal
shares of highway and transit investments are paid out of the Highway Trust Fund,
which is supported primarily by Federal fuel and related excise taxes. Large
surface transportation facilities are frequently financed, built, maintained, and
operated by facility-specific public entities, such as turnpike authorities, which
have access to municipal bond markets and collect tolls.

Our analyses compared PPPs to traditional financing and operating methods by
performing financial valuations of representative projects under alternative
scenarios. Specifically, we compared the value of each project when implemented
with a PPP to its value when implemented through a public, facility-specific
agency. Our vantage point during these calculations was that of a state or local
government seeking to determine which financing option to use. While our general
approach could be applied to a variety of transportation projects, we focused on
highway infrastructure projects. We performed our analyses on example projects
that illustrate different aspects of actual highway infrastructure projects, such as
contract length and patterns of revenues and costs. The examples include both
greenfield projects, which involve the construction of new facilities, and
brownfield projects, which involve existing facilities. All examples resemble
implemented or proposed PPP highway projects, but do not replicate them exactly.
We did not analyze specific detailed proposals, or render judgment on them. Our
example projects are as follows:

   1. A 40-year greenfield toll road project modeled after a proposed two billion
      dollar toll road of about 30 miles in length near Austin, Texas;

   2. A 50-year brownfield toll road project of about 550 miles in length,
      patterned after the Pennsylvania Turnpike;

   3. A 90-year brownfield toll road project under 10 miles in length, patterned
      after the Chicago Skyway;

   4. A 75-year brownfield toll road project, involving 157 miles of roadway and
      patterned after the Indiana Toll Road;
                                                                                                                         5


      5. A 25-year brownfield toll road project involving a 1,370-mile network of
         highways in eastern France, modeled after the French highway known as
         the Autoroutes Paris Rhin-Rhone;

      6. A 50-year greenfield project involving multiple segments, and patterned
         after a proposed toll road in the Houston area; and

      7. An 80-year greenfield highway expansion project, patterned after Virginia's
         I-495 Capital Beltway and involving the addition of variably priced HOT
         lanes.


PPPs HAVE INHERENT COST DISADVANTAGES

PPP financing faces higher costs than traditional public financing primarily for
two reasons. First, PPPs pay higher costs for capital which results, in part, from
the differential tax treatment of PPP and public debt. PPPs also typically
incorporate equity financing, and equity investors generally require higher rates of
return than are paid to debt holders. Second, the private sector must pay Federal,
state and local taxes from which the public sector is typically exempt.

PPPs Pay Higher Costs for Capital

PPP financing has a higher cost of capital than traditional public financing because
interest on the debt that a PPP issues is taxable. Conversely, interest payments on
municipal bonds that public sector entities use to finance projects are exempt from
Federal taxation and sometimes from state taxation. Bond purchasers accept lower
returns on municipal debt than on private bonds because of the tax exemptions.
PPP financing also has a higher cost of capital because PPPs typically incorporate
equity financing in which investors own stakes in the projects and share in the
profits. Investors generally expect to earn higher rates of return on equity
investments than on debt investments. Consequently, the larger the equity
component in a PPP's financing structure, the higher the cost of capital compared
to public financing. For example, for the 50-year brownfield project in Project
Example 2, we calculated the cost of capital of PPP financing to be 7.16 percent
and 6.29 percent for public sector financing. 3



3
    We incorporated multiple factors in our derivations of these estimates. For PPP options, these factors included
    shares of debt and equity, debt structure, and likely ratings of project bonds. For public sector options, they included
    availability of junior versus senior debt, presence or cost of bond insurance, and yield on municipal bonds.
                                                                                                                          6


The disadvantage of the cost of capital in PPP financing has a greater impact on
greenfield projects than on brownfield projects, primarily because of the
greenfield projects' more uncertain revenue streams. This uncertainty leads equity
investors to demand even higher rates of return. For example, using similar market
transactions as a guide, we imposed a 16.0 percent cost of equity on the 40-year
greenfield project in Project Example 1. This cost was much higher than the 12.5
percent cost of equity we assumed for the 50-year brownfield project in Project
Example 2. With the same financing structure, this difference resulted in a cost of
capital of 8.21 percent for the greenfield project compared to 7.16 percent for the
brownfield project.

The valuations of greenfield projects are also more sensitive to the cost of capital
than those of brownfield projects. 4 A greenfield project's construction costs occur
early on, and consequently are discounted relatively little. The revenue stream, on
the other hand, is comparatively small in any given year and stretches out over the
life of the project, so its present value is significantly affected by discounting.
Increases in the cost of capital translate into increases in the discount rate.
Increases in the discount rate reduce the present value of a greenfield project's
revenue stream much more than the present value of the project's construction
costs. By comparison, a brownfield project's costs, primarily O&M expenditures,
are spread out over time, so discounting reduces them in a manner similar to
revenues.

The impact of a PPP's cost of capital on its valuation also increases with the length
of the project contract. The farther in the future that revenues and costs occur, the
more discounting affects their present values. Because of the difference in
discount rates, future net revenues are discounted more heavily for PPPs than for
public sector financing. As a result, long-term PPP projects face larger
disadvantages than short-term PPP projects in providing the value when compared
to the value available through traditional public sector financing.

The Private Sector Pays Taxes That the Public Sector Does Not

The Federal, state and local taxes on certain assets and net revenues that the
private sector must pay constitute another cost disadvantage for PPP financing
compared to traditional financing. The public sector is typically exempt from such
taxes. In Figure 1 on the next page, we illustrate the impact of different tax rates
on the values of two PPP projects compared to the values of their publically-
4
    To see this difference in sensitivity, it is necessary to understand the basis of project valuation. Valuations of
    multi-year projects are quoted in terms of "present values"—their lump-sum worth today—in order to make them
    comparable. In financial analyses, the determination of today's value of a revenue or expense occurring in the future
    is accomplished by discounting the revenue or expense at a rate equal to the cost of capital. Since interest, or the cost
    of capital, compounds over time, revenues and expenses are discounted more heavily the further in the future they
    occur. See the Scope and Methodology section for further discussion of present value.
                                                                                                                                                        7


financed alternatives. To do this comparison, we use a measure called the net
contribution ratio. We calculate this ratio by dividing each PPP's value by the
value that we would obtain using the public sector financing alternative. A net
contribution ratio greater than one for a PPP means that the PPP yields greater
value than the public sector option, whereas a net contribution ratio of less than
one indicates that the PPP yields less value than the public sector option. Figure 1
shows that the PPP projects' net contribution ratios, and consequently their relative
values, decline rapidly as tax rates increase.

   Figure 1. Private Tax Rate Sensitivity
                                      50-Year Brownfield (Example 2)                                              50-Year Greenfield (Example 6)
                         1.5                                                                         1.5




                                                                            Net Contribution Ratio
Net Contribution Ratio




                         1.0                                                                         1.0



                         0.5                                                                         0.5



                         0.0                                                                         0.0



                         -0.5                                                                        -0.5
                                0%   5%   10% 15% 20% 25% 30% 35% 40% 45%                                   0%   5%   10% 15% 20% 25% 30% 35% 40% 45%
                                                  Tax Rate                                                                    Tax Rate

   Source: OIG analysis



The PPP tax disadvantage is greater at lower costs of capital. Taxes constitute a
stream of expenses incurred only by the private sector. When these future costs are
discounted less heavily, they contribute more substantially to the difference
between the present values of the PPP and public sector alternatives. Figure 2 on
the next page illustrates this effect using net contribution ratios in which the
denominator is the value of a public sector alternative with a fixed cost of capital
(the public sector base case). In this instance, we also calculate the net
contribution ratios for public sector options with different costs of capital. As the
cost of capital falls, the valuations of both the PPP and the public sector option
increase relative to the public sector base case. However, the PPPs' net
contribution ratios rise more slowly than those of the public sector options. This
slower rise is caused by an increase in the impact of the tax streams on the PPP
project's valuations, an increase that results from the decline in the discount rate.
This effect visibly expands the wedge between the relative valuations of each
project undertaken with the different financing methods.
                                                                                                                                                                                    8



        Figure 2. Cost of Capital Sensitivity
                                                40-Year Greenfield (Example 1)                                                        50-Year Brownfield (Example 2)
                              4.0                                                                                   3.0

                              2.0                                                                                   2.0




                                                                                           Net Contribution Ratio
    Net Contribution Ratio




                              0.0
                                                                                                                    1.0
                              -2.0
                                                                                                                    0.0
                              -4.0
                                                                                                                    -1.0
                              -6.0

                                                                                                                    -2.0
                              -8.0

                             -10.0                                                                                  -3.0
                                     4%   5%   6%   7%   8%   9% 11% 12% 14% 16% 20% 30%                                   4%   5%   6%   7%     8%    9% 11% 12% 14% 16% 20% 30%

                                                         Cost of Capital                                                                          Cost of Capital
                                                    Private Sector    Public Sector                                                            Private Sector   Public Sector

        Source: OIG analysis
        Note: Figure 2 assumes a 5% base cost of capital and residual cost of capital for the public sector base case, and a
        35% total tax rate on private sector taxable income.




EFFICIENCIES AND INNOVATIVE FINANCING PROGRAMS CAN
OVERCOME PPPs' DISADVANTAGES, BUT NEITHER PPP NOR
TRADITONAL FINANCING IS ALWAYS PREFERABLE

Efficiencies in the construction of greenfield projects can overcome PPPs' cost
disadvantages, as can efficiencies in revenue generation. Innovative financing
programs—in particular, the options available under TIFIA and PABs—can also
offset PPPs' cost disadvantages by providing them with less costly and more
flexible sources of capital. However, generalizations about which approach—a
PPP or traditional financing—is more advantageous to the public sector cannot be
made as each project has its own unique characteristics. We developed a flowchart
of our analysis that could guide a decision maker in his or her financing choice.

Cost Efficiencies in New Construction Projects Can Offset PPPs' Cost
Disadvantages

Private-sector efficiencies in new construction can sufficiently increase the
valuation of a project undertaken with a PPP to make the PPP financing
preferable. PPPs could be particularly preferable for greenfield projects due to the
magnitude of new construction costs and the fact that these costs occur during the
greenfield project's' early years. 5 Figure 3 on the next page illustrates these


5
              The costs’ occurrence in early project years means they are not significantly discounted.
                                                                                                                                                                    9


effects. 6 For each project shown, Figure 3 maps the changes in the net contribution
ratio of the PPP alternative against the percentage of the public sector alternative's
construction costs incurred by the PPP. The greater the construction cost
efficiencies associated with the PPP, the smaller the percentage of the public
sector alternative's construction costs it incurs, and the higher the PPP's net
contribution ratio. The 40-year greenfield project of Project Example 1 is shown to
achieve a net contribution ratio of one—which means it provides the same value
as the public sector alternative—when its construction costs are 75 percent of the
public sector alternative's construction costs.

    Figure 3. Sensitivity of PPP Valuation to Construction Cost
    Efficiencies
                                         40-Year Greenfield (Example 1)                                                  50-Year Greenfield (Example 6)
                             3.0                                                                             1.5


                                                                                                             1.2
                             2.0
    Net Contribution Ratio




                                                                                    Net Contribution Ratio
                                                                                                             0.9
                             1.0

                                                                                                             0.6

                             0.0
                                                                                                             0.3


                        -1.0                                                                                 0.0
                                   50%       60%     70%      80%      90%   100%                                  50%      60%      70%      80%      90%   100%
                                              Share of Public Sector Costs                                                    Share of Public Sector Costs

    Source: OIG analysis

Interestingly, private sector operating cost efficiencies, even when large as a share
of total O&M, are not major value drivers for PPP projects because heavy
maintenance 7 and O&M costs are small relative to total project costs and revenues,
and occur over time rather than in the early years. Consequently, O&M cost
efficiencies have little effect on bottom line net contributions, as illustrated by the
analyses of two brownfield PPPs shown in Figure 4 on the next page. 8 The net
contribution ratios change very little as operating cost efficiencies increase and, in
any case, fail to achieve a value of one over the range of efficiencies examined.
Even the reduction of heavy maintenance or O&M costs to half their levels in the


6
    The difference between the public sector alternative and the PPP alternatives in this Figure results from the
    assumption that the PPPs face a total tax rate of 35 percent. The cost of capital is assumed not to differ between the
    public and private alternatives.
7
    Heavy maintenance costs are costs that are typically not part of routine maintenance costs, such as the costs of
    resurfacing a road.
8
    The difference between the public sector alternative and the PPP alternatives in this Figure results from the
    assumption that the PPPs face a total tax rate of 35 percent. The cost of capital is assumed not to differ between the
    public and private alternatives.
                                                                                                                                                                 10


  public sector alternative is insufficient to raise PPP valuations to equal the value of
  the public sector alternative.

  Figure 4. Sensitivity of PPP Valuation to Heavy Maintenance and
  O&M Efficiencies
                                      90-Year Brownfield (Example 3)                                                    75-Year Brownfield (Example 4)
                         1.1                                                                                1.2


                         1.0                                                                                1.1
Net Contribution Ratio




                                                                                   Net Contribution Ratio
                                                                                                            1.0
                         0.9
                                                                                                            0.9
                         0.8
                                                                                                            0.8

                         0.7                                                                                0.7

                         0.6                                                                                0.6
                               50%    60%       70%        80%    90%     100%                                    50%   60%       70%       80%     90%       100%

                                         Share of Public Sector Costs                                                    Share of Public Sector Costs
                                        Heavy Maintenance Cost     O&M Cost                                             Heavy Maintenance Cost     O&M Cost

  Source: OIG analysis


  Efficiency in Revenue Generation Can Overcome PPPs’ Cost
  Disadvantages

  Efficiency in revenue generation, an important driver of the valuations of both
  brownfield and greenfield projects, can make PPP financing preferable to
  traditional financing. Efficient revenue generation may result from reductions in
  toll collection leakage, 9 toll rate increases, 10 or increased revenues from other
  sources, such as rest area concessions.

  Based on interviews with analysts familiar with PPP transactions and a review of
  recent PPP transactions, we assumed that private sector operators could generate
  25 percent more in annual gross revenues than public sector operators under
  similar circumstances. Under this assumption, our comparison of PPP financing to
  traditional financing for Project Example 1, a 40-year greenfield project, showed
  the PPP alternative to be preferable, and that its significant increase in the project's
  gross revenues helped to overcome the public sector’s financing cost advantage.
  The private sector’s ability to generate substantially greater toll revenues also
  contributed to PPP financing being the preferable alternative for the 50-year
  brownfield project in Project Example 2.


  9
                         Collection leakage occurs when toll road users evade toll fees.
  10
                         Transportation PPP projects in the U.S. are relatively new and the ability of the private sector entity to maintain a
                         steady increase in toll rates over an extended period remains untested.
                                                                                   11


Innovative Financing Can Also Reduce PPPs' Cost Disadvantages

Innovative financing programs, which have been developed to fill market gaps and
reduce the costs of capital associated with private investment in transportation
projects, can reduce PPPs' cost disadvantages. The programs provide private sector
entities with tools to raise additional funds and increase the flexibility with which
they can use these funds. Possibilities for innovative financing exist under two
Federal programs—the options available under TIFIA, and PABs, which are tax-
exempt bonds that public entities issue to provide low-cost financing for private
projects that serve public purposes.

TIFIA offers a number of different financing options that can help the private
sector reduce its cost of capital, including secured direct loans, loan guarantees,
and lines of credit. A line of credit, unlike a direct loan, allows its holder to
borrow funds as needs arise. A loan guarantee secures a promise from a third party
that the party will assume a debt obligation if the borrower defaults. These
guarantees reduce investors' risks and, consequently, the interest rates they require.
However, TIFIA credit assistance is limited to 33 percent of project costs. To
increase private sector investment in U.S. infrastructure, the PAB program
provides access for private developers and operators to financial products that
offer the same tax advantages as municipal bonds, which ultimately reduce the
private entities' costs of capital.

These innovative financing mechanisms can significantly improve a project’s net
earnings through their access to capital on more favorable terms. For example, in
the 80-year greenfield project in Project Example 7, which incorporated the use of
innovative finance techniques, the PPP's cost of capital fell to 6.28 percent
compared to 7.61 percent without innovative financing. In this instance, the PPP
financing alternative's capital structure included 25 percent TIFIA loans,
25 percent PABs, 25 percent long-term corporate debt, and 25 percent equity. In
comparison, the public sector alternative without innovative financing had a cost
of capital of 6.29 percent.

Figure 5 on the next page illustrates the potential impact of innovative financing
on the net contribution ratio of PPP financing compared to traditional private
financing for Project Example 7. The two charts show that progressive increases
of either TIFIA or PAB financing as part of overall project financing can
significantly increase the net contribution ratio. Moreover, as shown in Figure 6,
also on the next page, use of TIFIA financing and PABs together increases the
asset's valuation even more.
                                                                                                                                                         12


Figure 5. TIFIA/PAB Sensitivity: 80-Year Greenfield (Example7)
           Private Financing (18% Equity - 82% Debt)                                           Private Financing (18% Equity - 82% Debt)
                        TIFIA Sensitivity                                                                   PAB Sensitivity

With innovative financing                                                                                                        With innovative financing
35% TIFIA ( 5.78% WACC)                                                                                                          35% PAB ( 5.93% WACC)
30% TIFIA ( 5.85% WACC)                                                                                                          30% PAB ( 5.97% WACC)
25% TIFIA ( 5.91% WACC)                                                                                                          25% PAB ( 6.02% WACC)
20% TIFIA ( 5.97% WACC)                                                                                                          20% PAB ( 6.06% WACC)
15% TIFIA ( 6.04% WACC)                                                                                                          15% PAB ( 6.10% WACC)
10% TIFIA ( 6.10% WACC)                                                                                                          10% PAB ( 6.14% WACC)
 5% TIFIA ( 6.16% WACC)                                                                                                          5% PAB ( 6.19% WACC)
    Traditional financing                                                                                                        Traditional financing

                                       -1.00         -0.50      0.00        0.50   1.00 1.00   0.50       0.00       -0.50   -1.00
                                                       Net Contribution Ratio                     Net Contribution Ratio

Source: OIG analysis
 Note: Base case debt composition: TIFIA–37%; PAB–37%; senior debt–26%. In other words, we use the full
        innovative finance option as our base to illustrate the effects of decreasing amounts of innovative finance.
        We recognize that TIFIA financing cannot exceed 33% of project costs and it does not in our analysis. 37%
        TIFIA in our base case means 37% of the 82% of total financing comprised of debt, resulting in 30% TIFIA
        assistance in terms of total project financing costs (i.e. 37% of 82%).


                 Figure 6. Combined TIFIA/PAB Sensitivity: 80-
                 Year Greenfield (Example 7)
                                                                Private Financing (18% Equity - 82% Debt)
                                                                           TIFIA/PAB Sensitivity
                                                1
                     Net Contribution Ratio




                                              0.5



                                                0



                                              -0.5



                                               -1




                 Source: OIG analysis
                 Note: Base case same as in Figure 5
                                                                                                                  13


Whether PPP or Traditional Public Sector Financing is Preferable
Depends on Project Specifics

Generalizations about which financing approach is more advantageous to the
public sector cannot be made because project specifics determine which approach
is preferable. 11 The impact of input variables on net contribution ratios for PPP
transactions in our examples illustrates this point. Figure 7 on the following pages
shows the results of sensitivity analyses with respect to key input variables:
concession term; toll revenues; construction cost efficiency; O&M efficiency; and,
cost of capital. 12 We varied each factor and then measured the effect on the net
contribution ratio. Large changes in the magnitude of the Figure's bars indicate
large effects from changes in the input variables' values.

Figure 7 also illustrates the following points about PPPs and traditional financing:

       • Each set of variables and each variable's impact magnitudes differ
         according to project;

       • Private sector efficiencies with respect to facility O&M costs are not
         important value drivers, and, except in Project Example 2, construction cost
         efficiencies are not primary value drivers for brownfield projects;

       • Toll revenues and concession terms are important value drivers for both
         greenfield and brownfield projects, but concession terms are significantly
         less important for brownfield projects;

       • Cost of capital is a primary value driver in all our examples, except Project
         Example 5, in which the short contract term reduces its impact, and is
         especially important in greenfield projects.

       • Brownfield projects are less sensitive to changes in variables than
         greenfield projects, substantiating the fact that greenfield projects contain
         greater operational, capital and financial risks.




11
     The National Surface Transportation Infrastructure Financing Commission came to a similar conclusion: “[T]here is
     no overarching guide to the appropriateness of private sector financial participation. Each project’s specific
     circumstance will determine the suitability of private sector involvement.” Paying Our Way: A New Framework for
     Transportation Finance, Report of the National Surface Transportation Infrastructure Financing Commission,
     Washington, D.C., February 26, 2009, p. 177.
12
     The differences between the public sector base cases and the PPP alternatives in this figure results from the
     assumption that the PPPs face a total tax rate of 35 percent. The cost of capital is assumed to not differ.
                                                                                                                                   14


Figure 7. Sensitivity of Input Variables
                                                                          Example 1: Greenfield, 40 yrs
                                        10.00


                                                 8.00


                                                 6.00


      Net Contribution Ratio                     4.00


                                                 2.00


                                                 0.00


                                          -2.00


                                          -4.00


                                          -6.00




                                                           Term of Concession      Toll Revenues    Construction Cost Efficiency
                                                           Operation and Maintenance Efficiency     Weighted Cost of Capital

                                                                      Example 2: Brownfield, 50 yrs

                                                   8.00


                                                   6.00
                        Net Contribution Ratio




                                                   4.00


                                                   2.00


                                                   0.00


                                                  -2.00


                                                  -4.00


                                                  -6.00




                                                           Term of Concession      Toll Revenues    Construction Cost Efficiency
                                                           Operation and Maintenance Efficiency     Weighted Cost of Capital


                                                                          Example 3: Brownfield, 90 yrs
                                     4.00


                                     2.00
   Net Contribution Ratio




                                     0.00


                                 -2.00


                                 -4.00


                                 -6.00




                                                          Term of Concession     Toll Revenues     Construction Cost Efficiency
                                                          Operation and Maintenance Efficiency     Weighted Cost of Capital
                                                                                                                   15



Figure 7. Sensitivity of Input Variables (cont.)
                                                            Example 4: Brownfield, 75 yrs

                                   4.00



                                   2.00
         Net Contribution Ratio

                                   0.00



                                   -2.00



                                   -4.00



                                   -6.00




                                            Term of Concession      Toll Revenues   Construction Cost Efficiency
                                            Operation and Maintenance Efficiency    Weighted Cost of Capital

                                                              Example 5: Brownfield, 25 yrs

                                  4.00



                                  2.00
     Net Contribution Ratio




                                  0.00



                                  -2.00



                                  -4.00



                                  -6.00




                                            Term of Concession      Toll Revenues   Construction Cost Efficiency
                                            Operation and Maintenance Efficiency    Weighted Cost of Capital

                                                                  Example 6: Greenfield, 50 yrs
                                    30.00



                                    20.00
        Net Contribution Ratio




                                    10.00



                                     0.00



                                   -10.00



                                   -20.00




                                            Term of Concession     Toll Revenues    Construction Cost Efficiency
                                            Operation and Maintenance Efficiency    Weighted Cost of Capital

Source: OIG analysis
                                                                                                                 16


Decision Makers Can Use Our Analysis to Assist in Their Selections
of Financing Methods

The determination of which financing method, a PPP or traditional financing, best
meets a project's needs can be translated into a flowchart, which we developed for
decision makers, as depicted in Figures 8 and 9. The first point of comparison,
shown in Figure 8, concerns whether or not a project involves new construction.
If so, the decision maker must determine whether or not a PPP will provide
construction efficiencies. If construction efficiencies exist, then the question
becomes whether or not they are large enough to make the PPP more attractive
than the public alternative. If they are of sufficient scale, then the PPP is the
preferable solution. However, if they are not large enough to overcome the
inherent advantages of the traditional option, then the PPP's construction
efficiencies and any efficiencies in revenue generation should be considered, since
the combined efficiencies may make the PPP the better choice.


    Figure 8. PPP vs. Traditional Financing: New Construction
           Does                 NO                  See Figure 9                NO
         Proposed
          Project
          Involve
          NEW                                     Are Construction                             Do Construction
      Construction?
                                YES            Efficiencies Available?           YES
                                                                                                 Efficiencies
                                                                                                 Make PPP
                                                                                                   More
                                                                                               Attractive than
                                                                                 NO            Public Funding?
                                Would Combining
                        Construction Efficiencies With
                              Revenue Generation
                          Efficiencies make PPP more
                        attractive than Public Funding?
       NO                                                                YES                        YES


         Would Combining                                                                  Choose PPP
                                                      Choose Public
            Construction               NO              Financing *
                                                                                          Agreement *
         Efficiencies With
        Innovative Finance
          make PPP more                                Choose PPP With                     Consider Use of
       attractive than Public         YES                 Innovative                    Innovative Finance to
              Funding?                                   Financing *                   Further Maximize Value

    * Consideration of all other factors, including risk allocation, is critical before making a sound final
      project delivery method decision.
    Source: OIG analysis
                                                                                                                  17


If the combination of construction and revenue efficiencies does not outweigh the
public option's advantages, then the addition of innovative financing could make
the PPP more attractive. If the combination of efficiencies and innovative
financing cannot achieve the value that the traditional public financing alternative
can, then public financing provides the more cost advantageous approach.

If no efficiencies in construction are available, then the question becomes whether
efficiencies in revenue generation can be found under a PPP. Figure 9 illustrates
the decision making process in this situation. If existing efficiencies are sufficient
to make the PPP option more attractive than the public sector alternative, the PPP
should be chosen. When efficiencies in revenue generation are present but are not
of sufficient size to make the PPP a better value, then the addition of innovative
financing should be considered. If the combination cannot overcome the
traditional option's value, then public financing is the best choice.

   Figure 9. PPP vs. Traditional Financing: Revenue Efficiencies
                                                      Are Efficiencies
                                     YES            Enough to Make PPP                            YES
            Are Revenue                              More Attractive?
             Efficiencies
             Available?

                                     NO                     NO                               Choose PPP
                                                                                             Agreement *


                         Would Innovative             Would Combining Revenue                  Consider Use
                         Finance Make the             Generation Efficiencies with             of Innovative
                       PPP More Attractive           Innovative Finance Make the                Finance to
                       than Public Funding?            PPP More Attractive than                    Further
                                                           Public Funding?                       Maximize
                                                                                                    Value


                   YES                     NO             NO            YES


                                              Choose Public
                                               Financing *            Choose PPP With
                                                                         Innovative
                                                                        Financing *

    * Consideration of all other factors, including risk allocation, is critical before making a sound final project
      delivery method decision.
    Source: OIG analysis


It is important to emphasize that decision makers should always consider various
innovative financing tools when implementing a PPP arrangement. These tools
may further enhance a PPP's value through reductions in the cost of capital.
                                                                                                                        18


Our analysis is purely financial, and the preceding flowcharts illustrate that
financial analysis. A determination of whether to use a PPP or public financing
ultimately needs to incorporate a broader range of factors than we considered in
our analyses. Principal among these additional factors are different risk allocations
and the possibility of more expedient project delivery. These factors can
significantly affect a project's ultimate value.


PPPs ARE NOT LIKELY TO SIGNIFICANTLY REDUCE THE
INFRASTRUCTURE FUNDING GAP

PPPs are not likely to significantly reduce the infrastructure funding gap because
they change the timing with which funds become available, but generally do not
increase overall funding levels. Only to the extent that a PPP achieves efficiencies
that the public sector cannot achieve does the PPP provide funding greater than the
amount the public sector could receive through traditional financing. The fact that
PPPs have limited roles in the growth of infrastructure investment funding is
illustrated by our examples. In only two of the seven, Project Examples 1 and 2,
did we determine that PPP financing would directly deliver a superior net financial
contribution to the public sector entity than traditional financing methods. We
show how Project Example 7 could do so, but only with the addition of innovative
financing.

When a PPP pays funds up front to the public sector, the payments are in exchange
for future revenues associated with the asset, usually in the form of tolls. 13 In these
instances, States and other project sponsors must obtain the legal authority to levy
tolls for the PPP. However, if tolling or toll rates are not politically expedient, the
PPP is less attractive. Furthermore, despite their functioning as important system
links, many components of the national transportation system will never fully self-
fund from users and direct beneficiaries because the traffic on them is too
low-density.


CONCLUSION

PPPs offer an alternative means for the completion of transportation infrastructure
projects. However, PPPs can only provide additional funds for transportation
investments to the extent that the private sector can achieve efficiencies large
enough to offset the disadvantages of PPP financing. For highway projects,

13
      Such PPPs differ from arrangements found in other countries. In Canada, for example, some PPPs incorporate
     provisions, such as availability payments or shadow tolls, that require the government to pay the private entity for its
     operation and maintenance of a facility on the basis of the facility's meeting certain usage standards or levels.
                                                                                 19


efficiencies in construction and revenue generation are potentially of sufficient
scale to provide such an offset. The determination of whether PPP or traditional
financing offers greater value must be made on a case-by-case basis because of
each project's unique properties. Our analysis focused exclusively on the financial
trade-offs between PPPs and traditional financing. Any decision about whether to
use a PPP or a traditional public project delivery method should include
consideration of factors such as risk allocation and expediency of project delivery.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

Although we made no recommendations, we provided copies of this report to the
FHWA Administrator on May 24, 2011. On July 21, 2011, we received FHWA's
response which is included in its entirety as an appendix to this report. In its
response, FHWA emphasized the need to consider factors outside of our analysis,
especially the valuation of risk, in the PPP decision making process. However,
FHWA stated that based on a full consideration of risk valuation, innovative
financing options, and the potential to leverage public investment, PPPs offer
viable options for the advancement of transportation solutions. We agree. As we
noted in our report, our analyses did not consider the impacts of other factors,
including risk sharing arrangements, which can be significant. Instead, our report
clarifies and provides guidance on a number of factors that enter into a financial
analysis of PPPs which we recognize constitutes only a portion of the
comprehensive assessment required for an effective PPP decision.

If you have any questions concerning this report, please call me at (202) 366-9970,
or Betty Krier, Program Director, at (202) 366-1422.

                                         #

cc:    Audit Liaison, OST, M-1
       Audit Liaison FHWA, HAIM-13
                                                                                  20


EXHIBIT A. SCOPE AND METHODOLOGY

The objectives of our analyses were to: (1) identify financial disadvantages to the
public sector of PPP transactions compared to traditional financing methods;
(2) identify factors that allow the public sector to derive financial value from PPP
transactions; and (3) assess the extent to which PPPs can close the infrastructure
funding gap. Our quantitative comparison of PPP financing to conventional
municipal bond financing involves a purely financial valuation of projects under
alternative scenarios.

We worked with a team of contractors led by Charles River Associates
International and financial consultants, Scott Balice Strategies. We used published
literature to establish a foundation for our work. We constructed representative
examples of infrastructure projects to provide a basis for our analyses. We based
those representative examples on actual proposed or implemented projects
selected to illustrate various features of highway infrastructure projects. We used
interviews with investors and other market participants along with data on actual
projects and market conditions to help construct the representative examples. In
our selection of these examples, we sought coverage of a range of infrastructure
finance issues. Some of the key considerations in example selection were:

   •   Mix of greenfield and brownfield projects—our representative examples
       include three greenfield and four brownfield projects, a proportion that
       reflects the U.S. market;

   •   Variation of evaluation periods—evaluation periods in our examples range
       from 25 to 90 years;

   •   Revenue and cost variation—our examples exhibit considerable variation in
       revenue and cost streams;

   •   Availability of innovative federal financing mechanisms—we developed
       one example specifically to illustrate the use of federal innovative financing
       mechanisms.

The PPP greenfield projects we analyzed are all of the design, build, finance and
operate (DBFO) type, meaning that the private partners are responsible for the
design, construction, operation, maintenance, and finance of the facilities. The
brownfield projects are all long-term lease concessions in which the public sector
leases a facility to a private partner who then assumes responsibility for facility
operations and maintenance (O&M). Under a DBFO or a lease concession PPP,
the private partner pays a lump sum upfront to the public sector to obtain control



Exhibit A. Scope and Methodology
                                                                                   21


of a highway for a certain time period, and collects some or all of the revenues
associated with the highway during that period.

To value multi-year projects, we used present values. The present value of a cash
flow due at some date in the future is the amount which, if it were on hand today,
would grow to equal the amount expected at the future date. For example, if one
could earn 5 percent interest, $1,000 now would be worth $1,050 a year from now,
and $1,000 is the present value of $1,050 next year. The determination of the
present value of a future cash flow is known as "discounting," and the interest rate
used in the calculation is called the "discount rate." The higher the discount rate or
the farther in the future a cash flow occurs, the smaller the present value of a
particular cash flow or, in other words, the greater the degree to which the future
cash flow is discounted. In our analyses, we used the after tax weighted average
cost of capital to discount future cash flows.

We created a discounted present value cash flow valuation model to quantitatively
compare the investment value of the representative infrastructure projects using
traditional financing with tax-exempt debt and as a PPP using private financing.
We treated the choice of project financing mechanism as an investment decision.
In other words, we asked the question: “what is the value of the transportation
asset in terms of its financial contribution to the public sector?” The model
quantified the cost of traditional municipal financing as compared to PPP
financing. To obtain revenues, costs, and other financial inputs for the model, we
gathered data from relevant financial documents, annual reports, published and
unpublished project documents, existing databases, and assumptions in the
absence of any other information.

One critical model input derived from our assumptions was the revenue growth
rate. For all the U.S. based examples, the base case public sector alternative
assumed an annual revenue growth of 5 percent. With gross domestic product
growth averaging 4.2 percent between 1999 and 2007, and annual traffic growth in
the country usually estimated at about 1 percent, an overall revenue growth rate of
5 percent annually was considered to be a reasonable value for the base case
scenarios. The annual growth rate for the French example, Project Example 5, was
assumed to be 2.2 percent because the toll setting formula in France is much more
conservative than in the U.S., and toll increases usually are pegged to a fixed
percentage, usually 70 percent, of the consumer price index. Similarly, in all the
examples, the base case also assumed an annual growth in O&M and heavy
maintenance of 3.89 percent, which was the producer price index annual
escalation rate for maintenance and repair construction between 1999 and 2007.

The valuation model compared the net contributions—derived from the project's
gross contributions—provided to a state or local government entity from the


Exhibit A. Scope and Methodology
                                                                                                                          22


project under the two financing alternatives. The gross contribution of a project
consists of the monetization of its future cash flows less its financing costs. For a
public financing, this consists of the proceeds from the primary debt offering, such
as senior lien bonds, that could be financed plus the present value of any residual
cash flow available to the government after payment of debt service through the
financing term. Subordinate financing, such as junior lien bonds, served as a proxy
for this residual. In PPP financing, the monetization of future cash flows consists
of the total amount of capital that can be raised by the private sector, from both
debt and equity, which would be used to make an upfront payment to the
government. In a PPP arrangement, our model assumed that the equity financing
component was subordinate financing. In either type of financing, the total gross
contribution included the present value of the debt service reserve fund 14 that
would be available at the end of the valuation period. However, the initial cost of
funding the debt service reserve was included as a cost item with the financing
costs.

Subtracting the present values of construction, expansion, and heavy maintenance
costs from the gross contribution produced the net contribution. Construction costs
were broadly defined. They included general contractor and overhead costs,
architectural and engineering fees, preliminary engineering, final engineering,
environmental mitigation, right-of-way, utility relocation, construction
engineering and inspections costs necessitated by the construction of the facility.
Expansion costs included the construction costs of any additional lanes and other
associated expenses, such as construction or expansion of toll facilities. Heavy
maintenance costs consisted of non-routine maintenance costs, such as resurfacing
costs.

We also used our model to conduct sensitivity analyses—assessments of how
much project values change when some factor is changed—of each example
project. For example, we evaluated the effects of changes in the cost of capital and
the length of the agreement on project values under the competing implementation
methods.

Although debt markets were under stress during the time we conducted our
analyses, we did not focus on those market conditions, but emphasized general
principles of market function and ways to incorporate market conditions into
financial valuations. However, our analyses acknowledged both current and
recent, but less constrained, market conditions when we applied the valuation
model to representative examples in order to compare the relative efficacy of
public and private financing approaches.

14
     The debt service reserve fund is a set aside of debt proceeds for the benefit of the debt investor in the event that funds
     from operation are insufficient to pay debt service.


Exhibit A. Scope and Methodology
                                                                                 23


While we considered the value of the transportation asset from the perspective of a
state or local government, we did not consider the case in which a PPP transaction
is used as a vehicle to generate funds for some other purpose outside of
transportation infrastructure. Such an analysis might take into account financial
benefits that are outside the transaction, such as the use of proceeds or revenue
share. These considerations are potentially relevant factors in decision analyses of
PPPs, but we did not incorporate them in our analyses.

We compiled the information and results in this report between January 2008 and
April 2011. We believe that the data and information we collected, the sources
from which we obtained them, and the ways in which we used them, provide
reasonable basis for our findings and conclusions based on our stated objectives.




Exhibit A. Scope and Methodology
                                                                   24




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Betty Krier                             Supervisory Economist/ Program
                                        Director

Michael Day                             Economist

Keith Klindworth                        Economist

Susan Neill                             Writer/Editor




Exhibit B. Major Contributors to This Report
                                                                                    25




   APPENDIX. AGENCY COMMENTS




                                             Memorandum

Subject: INFORMATION: Response to the                               Date: July 21, 2011
         Office of Inspector General Draft
         Report on “Financial Analysis of
         Transportation-related Public Private
         Partnerships”

  From: Victor M. Mendez                                           In Reply Refer To:
        Administrator                                              HIN-1/HAIM-10

    To: Calvin L. Scovel III
        Inspector General (J-1)


         Public Private Partnerships (P3), which offer an alternative and innovative
         means to leverage Federal funding on transportation projects, are highly
         complex and dependent on project specific variables. As a result, the
         applicability of P3s to any given project must be determined on a case-by-
         case basis. While the Office of Inspector General (OIG) report provides
         some insights on financial metrics, as recognized in the OIG report, it is not
         a comprehensive analysis of applicable factors for P3 decisionmaking.
         Large projects are unique and complex and require each public sponsor to
         carefully review the financial and policy implications of its delivery options
         – from traditional design-bid-build through a long-term concession such as a
         P3. A key and often decisive element not addressed by the OIG report
         involves the valuation of risk. Absent these specific valuations, it is
         impossible to draw any definitive conclusions regarding the comparative
         financial merits of a P3 option.

         A comprehensive analysis of P3 financial viability must evaluate risk versus
         reward. Starting with the premise that the private sector will have a higher
         cost of capital, the public sponsor must place a dollar value on the risks a


   Appendix. Agency Comments
                                                                                                             26


          private partner would be willing to assume. While the OIG report
          recognizes the private sector’s added value as a combination of
          “efficiencies” in construction and revenue collection, it does not explicitly
          recognize the key financial elements of valuing risk, both from a public cost
          reduction perspective and from the perspective of the private partner. For
          example, toll road revenue projections depend largely on estimates of future
          regional economic performance and growth that cannot be precisely
          determined at the time the project is being financed. As experience has
          shown, both public and private operators can be overly optimistic when
          estimating potential revenue, but when the private sector has taken this risk,
          it is equity investors that absorb any financial loss.

          A more comprehensive approach that is being increasingly employed by
          public sponsors of P3s is project-by-project Value for Money (VfM)
          analysis of total costs and benefits. A VfM analysis will evaluate the public
          delivery option directly against the P3 option, establishing a threshold for
          private firms to meet or exceed. These studies require an analysis of a more
          comprehensive and project-specific set of detailed factors than is included
          within the OIG analysis. Since the OIG report does not offer a
          comprehensive review of the factors associated with P3 decisions,
          particularly the key consideration of risk valuation in the financial analysis
          associated with P3s, the reader is cautioned against drawing any larger
          conclusions from the OIG’s analysis. For example, the report’s flowcharts
          are not general decision tools, but simply an illustration within the limited
          domain of the analysis.

          It is also important for the OIG report to recognize that projects are not
          equally likely to advance under either public or P3 based financing. The
          availability of innovative financing methods could be a determining factor
          over whether a project proceeds. A key reason that State and local
          governments consider P3s is that public financing is often constrained by
          statutory or policy limits on debt amounts, maturities, and offering terms.
          Recognizing that public debt financing capacity might be inadequate to
          undertake the project under consideration, States and localities may face the
          choice between delivering the project as a P3, or not at all.

          While a noteworthy share of P3 development in the United States was
          essentially the monetization of preexisting highway assets, 15 these types of
          agreements may represent a smaller share of P3 opportunities in the United
          States compared to new development and investment. Recognition of this

15
     Examples include the Chicago Skyway and the Indiana Toll Road transactions in which the public sector leased
     existing highways to private concessionaires in exchange for a lump sum payment.


Appendix. Agency Comments
                                                                                  27


    potential is based on the Agency’s experience with the Transportation
    Infrastructure Finance and Innovation Act (TIFIA) credit program, which
    has since 2003 executed loans for seven P3 projects, each of which meets
    the report’s definition of a “greenfield” facility, in California, Texas,
    Florida, and Virginia. The “brownfield” projects that the report examines
    (two of which are patterned after Chicago and Indiana) would be ineligible
    for TIFIA or private activity bonds, the innovative finance tools that the
    report notes are available for lowering the private sector’s cost of capital to
    the benefit of the public owner. These programs require new capital
    investment and cannot help finance a mere change of control.

    Based on a full consideration of risk valuation, innovative financing options,
    and the potential to leverage public investment, P3s offer a viable option for
    advancing transportation solutions. Under the right circumstances with a
    well-structured arrangement for sharing risk, a P3 can offer the potential to
    accelerate project delivery, provide capabilities not affordable under public
    finance options only, and provide a viable investment for the private sector.




Appendix. Agency Comments
